Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Undistributable Child Support Collections in Texas From October 1, 1998, Through March 31, 2006
August 08, 2008 | Audit A-06-06-00088
Executive Summary
The State agency implemented the recommendations from the prior audit and established controls over collecting rebates for single-source drugs administered by physicians.  Therefore, we do not offer any recommendations.
Complete Report
Download the complete report  (PDF)
From October 1998 through March 2006, the State did not report program income of up to $2.2 million ($1.4 million Federal share) from undistributable child support collections and interest earned on collections by the State and nine county child support offices.  These deficiencies occurred because the State did not have adequate procedures to ensure that it reported program income for all undistributable child support collections and interest earned on collections by the State and the counties.
We recommended that the State work with the Office of Child Support Enforcement and the county child support offices to determine the Title IV-D portion of the $2.2 million ($1.4 million Federal share) in undistributable collections and interest earned and report the amount as program income, review the county child support offices that we did not review to ensure that undistributable child support collections and interest earned on collections were reported as program income, and ensure compliance with State law.  The State generally disagreed with our findings and recommendations but did not provide any additional information that would lead us to change our findings or recommendations.
Return to CMS